"," ~
( t-
'..
      '..
      .l......JO
  ""'J'''YICES'OS~
                           DEPARTMENT OF HEALTH &. HUMAN SERVICES

                                                                                OCT 1 7 2007
                                                                                                                                   Office of Inspector General


                                                                                                                                   Washington, D.C. 20201




                     TO:                  Kerry Weems
                                          Acting Administrator
                                          Centers for Medicare & Medicaid Services

                     FROM:                Daniel R. Levinson~ ¡: ~
                                          Inspector General

                     SUBJECT:             Memorandum Report: Medicare Part 0 Prescription Drug Plan Sponsor
                                          lnternet Web Sites: Content and Accessibility, OEI-06-06-00340

                     In November 2006, we notified the Centers for Medicare & Medicaid Services (CMS)
                     that we were beginning a study of "Medicare Part D Coverage Determinations"
                     (OEI-06-06-00340). Shortly afterward, the Offce ofInspector General (OIG) learned
                     that the Governent Accountability Office had undertaken a similar study. To avoid
                     duplication, OIG decided not to pursue the study at that time. However, in preparing to
                     perform the study, OIG identified issues with Medicare Part D Prescription Drug Plan
                     (PDP) sponsors' Internet Web sites that warranted further review.
                     This memorandum report provides information about Medicare Part D PDP sponsors'
                     Internet Web sites' compliance with Federal regulations regarding content and
                     accessibility. OIG examined the Web sites of all 84 POP sponsors offering drug plans
                     within the 50 States and the District of Columbia in 2007. i
                     Federal regulations require that all POP sponsors have Web sites that include specific
                     content about receipt and use of Medicare benefits.2 Further, each Federal department
                     and agency is required to ensure that individuals with disabilities have comparable access
                     to information as those individuals without disabilities.3 Additionally, the Medicare
                     Marketing Guidelines require Part D Plans to maintain Web sites that are compliant with
                     accessibility standards for people with disabilities.4



                     i We excluded POP sponsors with service areas only in Puerto Rico and U. S. territories and we did not
                     include Medicare Advantage Prescription Drug Plans.
                     242 CFR § 423.128(d)(2).
                     3 Section 508 of
                                     the Rehabilitation Act (29 U.S.c. § 794d), as amended by the Workforce Investment Act
                     of 1998 (P.L. 105-220), § 508(a)(I)(A)(ii).
                     4 CMS, "Medicare Marketing Guidelines for: Medicare Advantage Plans, Medicare Advantage Prescription
                     Drug Plans, Prescription Drug Plans, and 1876 Cost Plans." Available online at
                     http://www . c ms. h hs. go viP rescr i pti 0 n D rii gCovContra/Do wn load s/F ina IMarketingG 1I ide Ii n es. pd f. Accessed
                     August 16, 2006.
Page 2 – Kerry Weems


We found that 33 percent of the 84 PDP sponsors’ Web sites we reviewed did not contain
all federally required content. The most commonly omitted information pertained to
enrollee disenrollment rights and responsibilities, the potential for PDP contract
termination, and information related to the formulary. Using two electronic tools that
allow page-level testing of Web-based information and applications, we also found that
85 percent of sponsor Web sites did not meet at least one of the Federal requirements for
Web site accessibility. These problems could affect access to content by Medicare
beneficiaries.

BACKGROUND

Medicare Part D: Prescription Drug Benefit
The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 created
the Part D program to provide access to prescription drug coverage for individuals
eligible for Medicare.5 Beneficiaries have two options. The first option is to enroll in a
PDP for their drug coverage and receive all other benefits through traditional Medicare
fee-for-service. The second option is to enroll in a Medicare Advantage Prescription
Drug Plan (MA-PD) and receive all Medicare benefits, including drug coverage, through
managed care.6 Most of the beneficiaries enrolled in Medicare Part D as of May 2007
(17 million of 25.4 million) were enrolled in PDPs.7

Part D plan sponsors are nongovernmental entities under contract with CMS to offer
prescription drug benefits through PDPs, MA-PDs, PACE plans, or cost plans offering
qualified prescription drug coverage.8 9 In early 2007, there were 1,875 PDPs in the
United States distributed among 84 plan sponsors.10 11 The number of Medicare
beneficiaries enrolled in particular PDPs varies considerably. Four plan sponsors have
more than a million enrollees each, 23 plan sponsors have between 100,000 and 999,999
enrollees each, and 57 plan sponsors have fewer than 100,000 enrollees each.12

Each Part D plan sponsor is required to have mechanisms for providing information to
current and prospective enrollees. These mechanisms must include a toll-free customer
5
  Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P. L. 108-173. 

6
  CMS, Final Rule, “Medicare Prescription Drug Benefit,” 70 FR 4194 (Jan. 28, 2005). 

7
  CMS, “CMS Medicare Advantage, Cost, PACE, Demo, and Prescription Drug Plan Organizations; 

Monthly Report by Contract, May 2007.” Available online at

http://www.cms.hhs.gov/MCRAdvPartDEnrolData/MEC/itemdetail.asp?filterType=none&filterByDID=­
99&sortByDID=2&sortOrder=descending&itemID=CMS1199141&intNumPerPage=10. Accessed 

June 17, 2007. 

8
  A PACE is a Program of All-Inclusive Care of the Elderly. 42 CFR § 460.6.

9
  42 CFR § 423.4.

10
   J. Hoadley, E. Hargrave, K. Merrell, J. Cubanski, and T. Neuman. “Benefit Design and Formularies of 

Medicare Drug Plans: A Comparison of 2006 and 2007 Offerings.” Kaiser Family Foundation, 2006. 

Available online at http://www.kff.org/medicare/7589.cfm. Accessed June 9, 2007. 

11
   A plan sponsor may have one contract and offer multiple plans or have several contracts and offer 

multiple plans. 

12
   See footnote 7. 

Page 3 – Kerry Weems


call center, an Internet Web site, and the provision of information in writing, upon
request.13 Our review focuses on one of the required mechanisms, Internet Web sites.14

Content Requirements for Web Sites
Each Part D plan sponsor’s Web site must include the information listed below about
prescription drug coverage under the PDP (see Appendix A for a more detailed
description):15

     •	 service area;
     •	 benefits;
     •	 ways of obtaining more information on cost-sharing requirements;
     •	 formulary;
     •  addresses of network pharmacies; 

     •  out-of-network coverage; 

     •	 grievances, reconsideration, exceptions, coverage determination, and appeal rights
        and procedures;
     •	 quality assurance policies and procedures;
     •	 disenrollment rights and responsibilities; and
     •	 potential for contract termination.

Additionally, Part D plan sponsors must submit all of their marketing materials
(including Web sites) to CMS for review of content and approval for distribution.16
Part D plan sponsors must also demonstrate to CMS that a portion of marketing resources
is allocated to marketing to the disabled and beneficiaries aged 65 and over.17

Accessibility Requirements for Web Pages
Web pages that make up PDP sponsor Web sites must meet certain criteria to ensure that
individuals with disabilities have comparable access to information about PDPs. Federal
regulation establishes 16 specific accessibility requirements for Web-based information
and applications (see Appendix B).18 These requirements focus on enabling assistive
technology tools designed for persons with disabilities and are particularly critical for
Web sites designed specifically for Medicare beneficiaries, such as PDP sponsor Web
sites. In 2000, sensory disabilities, such as blindness, deafness, or a severe vision or




13
   42 CFR § 423.128(d). 

14
   A Web site is a set of interconnected Web pages. A Web page is an individual document in Hypertext

Markup Language (HTML) contained in the Web site. Available online at www.techterms.com. Accessed 

July 30, 2007. 

15
   42 CFR § 423.128(b). 

16
   42 CFR § 423.50. 

17
   42 CFR § 423.50(f)(viii)(2)(i). 

18
   36 CFR § 1194.22. 

Page 4 – Kerry Weems


hearing impairment, affected approximately 14 percent of the civilian
noninstitutionalized population aged 65 years and older.19 20

Compliance with 4 of the 16 accessibility requirements can be assessed automatically,
using commercially available electronic tools.21 The four requirements are:

(1) Text equivalents. A nontext element conveys meaning through pictures (images,
graphics) or sound (audio clips). Federal regulations require that text equivalents
accompany every nontext element.22 For example, an image indicating a navigational
action should also have appropriate text, such as “Move to the next screen.”23 This is
necessary because speech synthesizers and Braille displays use the text description to
explain the meaning of the image.24 25 When audio clips convey instructions or
information, a text equivalent, such as a transcript, must be provided to ensure that the
information is available to those with auditory impairments.26

(2) Frames. Frames must be titled with text that facilitates frame identification and
navigation.27 Frames provide a way of dividing a computer screen into distinct areas.
They also can be obstacles for users with disabilities if the frames are not easily
identifiable to assistive technology. For example, one use of frames is to provide
navigational bars that remain in a fixed position while the content is displayed on another



19
   U.S. Census Bureau, “Census 2000 Summary File 3 (SF-3) - Sample Data.” Table P41: Age by Types 

of Disability for the Civilian Noninstitutionalized Population 5 Years and Over With Disabilities [19]. 

Available online at http://factfinder.census.gov/servlet/DTTable?_bm=y&-geo_id=01000US&­
ds_name=DEC_2000_SF3_U&-_lang=en&-mt_name=DEC_2000_SF3_U_P041&-format=&-

CONTEXT=dt. Accessed July 23, 2006. 

20
   The Census Bureau determined disability status through responses to questions about the existence of 

long-lasting conditions such as blindness, deafness, severe vision or hearing impairment; physical, mental, 

or emotional conditions lasting more than 6 months; and conditions that substantially limit one or more 

basic physical activities. Available online at

http://www.census.gov/acs/www/Downloads/2005/usedata/Subject_Definitions.pdf#page=31 and 

http://www.census.gov/dmd/www/pdf/d-61b.pdf. Accessed July 26, 2007. 

21
   The four requirements that can be checked automatically are 36 CFR § 1194.22(a), (i), (m), and (n). All 

other Federal requirements require manual checks. 

22
   36 CFR § 1194.22(a). 

23
   United States Access Board, “Web-Based Intranet and Internet Information and Applications (1194.22),” 

2001. Available online at http://www.access-board.gov/sec508/guide/1194.22.htm. Accessed 

September 15, 2006. 

24
   Ibid. 

25
   W. Chisholm, G. Vanderheiden, and I. Jacobs, “Web Content Accessibility Guidelines 1.0,” 1999. 

Available online at http://www.w3.org/TR/1999/WAI-WEBCONTENT-19990505. Accessed 

September 14, 2006. 

26
   J. Ellison, “Assessing the Accessibility of Fifty United States Government Web Pages: Using Bobby to

Check on Uncle Sam,” 2004. Volume 9 (7). Available online at

http://www.firstmonday.org/issues/issue9_7/ellison/index.html. Accessed May 8, 2007. 

27
   36 CFR § 1194.22(i). 

Page 5 – Kerry Weems


area of the screen. Users with disabilities may have difficulty navigating the page if the
different areas are not clearly defined by including text titles on the frames.28

(3) Links to plug-ins or applets. When a Web page requires an applet, a plug-in, or some
other application to enable a user to interpret page content, the page must provide a link
to the necessary plug-in or applet.29 Some PDP sponsors’ Web site home pages use file
formats that require plug-ins or applets that are downloaded and installed on the
enrollee’s computer. For example, a Web page containing links to materials in Adobe
Acrobat’s® Portable Document Format (PDF) must also provide a link to the plug-in
needed to read the PDF file.30 Some Web pages may use applets to create such design
features as scrolling text. The user must be able to operate the applet either by mouse or
by keyboard. If not, the information is inaccessible to persons with visual disabilities
who rely upon a screen reader and keyboard to navigate the site. The lack of an applet
link could also affect persons with motor disabilities who must rely upon assistive
devices to navigate a keyboard.31 32

(4) Online forms. Online forms must be designed so that people using assistive
technology may access information, field elements, and functionality that are required for
completion and submission of the forms.33 For example, if an input box on a form is
intended for receiving a user’s last name, the words “last name” (or some similar text)
should appear near that input box or should be associated with it.34

Internet Usage
The use of the Internet by older adults and persons with disabilities as a mechanism to
obtain health-related information has expanded in recent years. The most recent figures
available on Internet usage indicate that about 8.5 million adults aged 65 years and older
in the United States (25 percent of all seniors) report using the Internet to access

28
   United States Access Board, “Web-Based Intranet and Internet Information and Applications (1194.22),” 

2001. Available online at http://www.access-board.gov/sec508/guide/1194.22.htm. Accessed 

September 15, 2006. 

29
   36 CFR § 1194.22(m). 

30
   J. Ellison, “Assessing the Accessibility of Fifty United States Government Web Pages: Using Bobby to

Check on Uncle Sam,” 2004. Volume 9 (7). Available online at

http://www.firstmonday.org/issues/issue9_7/ellison/index.html. Accessed May 8, 2007. 

31
   L. R. Kasday, D. N. Bryen, and P. R. Bohman, “Web Browsing Challenges, Strategies, and Tools for 

People With Motor Disabilities and Users of AAC Technologies,” 2001–2003. Available online at 

http://www.webaim.org/projects/whitepaper.htm. Accessed June 29, 2007. Web Accessibility In Mind, 

“Motor Disabilities: Assistive Technologies.” Available online at 

http://www.webaim.org/articles/motor/assistive.php. Accessed June 29, 2007. 

32
   Keynote NetMechanic, “Building Web Sites That Comply with Section 508 Accessibility Guidelines.” 

Available online at http://www.netmechanic.com/accessibility/accessibility-requirements.shtml. Accessed 

August 2, 2007. 

33
   36 CFR § 1194.22(n). 

34
   W. Chisholm, G. Vanderheiden, and I. Jacobs, “Web Content Accessibility Guidelines 1.0,” 1999. 

Available online at http://www.w3.org/TR/1999/WAI-WEBCONTENT-19990505. Accessed 

September 14, 2006. 

Page 6 – Kerry Weems


information.35 Forty-seven percent of those seniors used the Internet as a source of
information on health services or practices and 32 percent for information on government
services or agencies.36

According to one survey, approximately 38 percent of persons with disabilities indicated
that they used the Internet. Within this group, 87 percent said that they had searched for
at least one health-related topic.37 Prior to the implementation of Part D, persons living
with disabilities were reportedly just as likely as other Americans to use the Internet to
search for drug information, underscoring the importance of comparable access to Web-
based information.38

METHODOLOGY

We examined the Web sites of all 84 PDP sponsors offering drug plans within the
50 States and the District of Columbia in 2007.39 Each plan sponsor is required to have a
Web site containing information about all of its PDPs. To identify Web site addresses for
PDP sponsors, we used Medicare.gov, which lists each PDP and associated Web site.
Additionally, we verified that the Web address provided on Medicare.gov was the same
address that was included in information provided to enrollees by comparing online
versions of the Summary of Benefits and Evidence of Coverage to the Medicare.gov
address.40 We calculated the proportion of beneficiaries enrolled in each PDP using
enrollment figures reported by CMS as of May 2007.41 We conducted the review during
April and May 2007.

We reviewed each Web site to determine whether the required content was available. We
began by reviewing the plan sponsor’s home page, which is the starting page or front
page of a Web site.42 When required content was not available on the home page, we
reviewed other documents available through links from the home page. We considered

35
   U.S. Census Bureau, “Current Population Survey.” Table 9B. Purpose of Internet Use for People 18
Years and Over Using the Internet Anywhere, by Selected Characteristics: October 2003. Available online
at http://www.census.gov/population/socdemo/computer/2003/tab098.xls. Accessed July 23, 2007.
36
   Ibid.
37
   Pew Internet & American Life Project, “Internet Health Resources,” July 16, 2003. Available online at
http://www.pewinternet.org/pdfs/PIP_Health_Report_July_2003.pdf. Accessed August 24, 2007.
38
   Pew Internet & American Life Project, “Prescription Drugs Online,” October 10, 2004. Available online
at http://www.pewinternet.org/pdfs/PIP_Prescription_Drugs_Online.pdf. Accessed August 24, 2007.
39
   We excluded PDP sponsors with service areas only in Puerto Rico and U.S. territories and we did not
include Medicare Advantage Prescription Drug Plans.
40
   CMS requires PDPs to provide the “Evidence of Coverage” and “Summary of Benefits” via the PDP
Web page and in hard copy form, according to the “Medicare Marketing Guidelines for: Medicare
Advantage Plans, Medicare Advantage Prescription Drug Plans, Prescription Drug Plans, and 1876 Cost
Plans.” Second revision, July 25, 2006. Available online at
http://www.cms.hhs.gov/PrescriptionDrugCovContra/Downloads/FinalMarketingGuidelines.pdf. Accessed
August 16, 2006.
41
   See footnote 7 on p. 2.
42
   Available online at www.techterms.com. Accessed July 30, 2007.
Page 7 – Kerry Weems


the content available if it was present on the home page or elsewhere on the Web site.
We did not assess the quality of the information or the policies and procedures described
on the Web site.

We also reviewed each sponsor’s home page to assess the Web site for compliance with
Federal requirements regarding accessibility. We used two electronic tools that enable
page-level testing of Web-based information and applications: WebXact™ and Cynthia
Says™.43 44 Both tools determine compliance with the same four Federal accessibility
requirements using automated procedures. Our assessment was limited to those four
requirements (i.e., text equivalents, frames, links to plug-ins or applets, and online
forms).45 The primary assessment tool was WebXact™. We used Cynthia Says™ when
the structure or design of a page prohibited an assessment by WebXact™. Although
neither of the programs measures the full range of accessibility and usability issues, both
identify basic design errors that could impede access to Web page content. If either of
the programs identifies errors, it is reasonable to conclude that accessibility problems
exist.46 47

In addition to examining the four accessibility requirements on the 84 PDP sponsors’
home pages, we examined specific Web pages that contained information related to
grievances, coverage determinations, and appeal rights for each PDP sponsor. Many
Web sites included this information only through links to files in PDF. For these sites,
we used WebXact™ and Cynthia Says™ to determine whether the required link to the
plug-in program was available on the page containing information on grievances,
coverage determinations, and appeal rights.

To determine whether any change in accessibility occurred over time, we compared 2006
and 2007 PDP sponsor home pages. We found that 68 PDP plan sponsors within the
50 States and the District of Columbia had contracts in both 2006 and 2007. We
conducted reviews of the 2006 home pages using WebXact™ and Cynthia Says™
between September and November 2006.

43
   WebXact™ is an updated version of the free online tool Bobby™, an accessibility evaluation tool used in

many earlier studies on Web page accessibility. Cynthia Says™ functions in a similar fashion, although it 

may not identify as many Web page accessibility errors as WebXact™ (Ellison, 2004). The free online

service WebXact™ is no longer available, as of July 15, 2007. 

44
   W. Chisholm, G. Vanderheiden, and I. Jacobs, “Web Content Accessibility Guidelines 1.0,” 1999. 

Available online at http://www.w3.org/TR/1999/WAI-WEBCONTENT-19990505. Accessed 

September 14, 2006. 

45
   36 CFR § 1194.22(a), (i), (m), and (n). 

46
   P. T. Jaeger, “The Importance of Accurately Measuring the Accessibility of the Federal Electronic 

Government: Developing the Research Agenda,” Information Technology and Disabilities, 9(1). 2003. 

Available online at http://www.rit.edu/~easi/itd/itdv09n1/jaeger.htm. Accessed May 9, 2007. 

47
   J. Ellison, “Assessing the Accessibility of Fifty United States Government Web Pages: Using Bobby to

Check on Uncle Sam,” 2004. Volume 9 (7). Available online at

http://www.firstmonday.org/issues/issue9_7/ellison/index.html. Accessed May 8, 2007. 

Page 8 – Kerry Weems


This study was conducted in accordance with the “Quality Standards for Inspections”
issued by the President’s Council on Integrity and Efficiency and the Executive Council
on Integrity and Efficiency.
Page 9 – Kerry Weems


RESULTS

Thirty-Three Percent of Web Sites Reviewed Did Not Contain All Required Content
Twenty-eight of the 84 PDP sponsors’ Web sites did not contain all required content (see
Table 1). These 28 plan sponsors serve 39 percent of all PDP enrollees. The most
commonly omitted information pertained to enrollee disenrollment rights and
responsibilities, the potential for PDP contract termination, and information related to the
formulary.

 Table 1: Medicare Part D Prescription Drug Plan Sponsor Web Sites That Did Not
 Contain All Federally Required Content
                                                        Number of
                                                        Web Sites        Percentage of
                                                           Without          Web Sites          Percentage
                                                          Content             Without         of Enrollees
 Contenta                                                 (n = 84)b           Content             in PDPsc
 Disenrollment rights and responsibilities                      13                15%                 23%

 Potential for contract termination                               13                 15%                10%

 Formulary                                                        13                 15%                    8%

 Quality assurance policies and                                     7                  8%                   7%
 procedures

 Benefits                                                           6                  7%                   7%

 Addresses of network pharmacies                                    5                  6%                   7%

 Out-of-network coverage                                            4                  5%               <1%

 Service area                                                       3                  4%               <1%

 Grievance, reconsideration, exceptions,                            3                  4%               <1%
 coverage determination, and appeal rights
 and procedures
 How to obtain more information on                                  2                  2%               <1%
 cost-sharing requirements

 Web sites that did not contain all
                                                                  28                 33%                39%
 federally required content
 a
  42 CFR § 423.128(b). 

 b
  OIG analysis of Web sites, April 1–May 31 2007.

 c
  CMS, “Medicare Advantage, Cost, PACE, Demo, and Prescription Drug Plan Organizations–Monthly Report by

 Contract–May 2007.” 



Because PDP sponsors with larger plans serve more enrollees, the absence of required
information from their Web sites potentially affects more enrollees. For example, the
same number of Web sites (13) lacked information about both disenrollment and
Page 10 – Kerry Weems


formulary. However, because of differences in the number of enrollees among those plan
sponsors, the proportion of enrollees in plans with Web sites that fell short of required
disenrollment information and formulary information differed between disenrollment
(23 percent) and formulary (8 percent).

One of the 84 Web sites contained only information about the PDP service area, lacking
the other nine required content elements. When we contacted that PDP to verify the lack
of content, a customer service representative confirmed that the information is not
available on the Web site and offered to send a brochure with the information.

Eighty-Five Percent of Sponsor Web Sites Did Not Meet at Least One of the Four
Federal Requirements Reviewed for Accessibility
Our review, using the electronic Web page assessment tools WebXact™ and Cynthia
Says™, revealed that 71 of the 84 PDP sponsors’ Web site home pages had errors related
to at least one of the accessibility requirements we reviewed (see Table 2). For enrollees
who have specific disabilities, PDP information on their sponsors’ Web sites could be
inaccessible.

 Table 2: Sponsor Web Site Home Pages With Errors Identified in at Least One of the
 Four Federal Requirements Reviewed for Accessibility

                                          Number of Home               Percentage of
                                              Pages With                Home Pages
                                             Accessibility                     With               Percentage
 Web-Based Information and                          Errors              Accessibility          of Enrollees in
 Applicationa                                    (n = 84) b                   Errors                   PDPsc
 Text equivalents                                           53                     63%                       78%

 Online forms                                               48                     57%                       23%

 Links to plug-ins or applets                               16                     19%                       9%

 Frames                                                       2                     2%                       2%

 Home pages with errors
 associated with at least one
                                                            71                     85%                       98%
 Federal requirement for
 accessibility
 a
   36 CFR § 1194.22(a), (i), (m), and (n). 

 b
   OIG analysis of Web sites, April 1–May 31 2007.

 c
   CMS, “Medicare Advantage, Cost, PACE, Demo, and Prescription Drug Plan Organizations–Monthly Report by

 Contract–May 2007.” 



Additionally, we compared 2006 and 2007 PDP sponsors’ home pages for the 68 plan
sponsors with contracts for both years. We found little change in Web page accessibility.
Page 11 – Kerry Weems


Eighty-seven percent of the home pages for 2006 had errors identified in at least one of
the four Federal requirements we reviewed, compared to 85 percent of the 2007 home
pages.

We also analyzed Web pages with content related to grievances, coverage
determinations, and appeal rights. Forty-three percent of the Web pages devoted to
coverage determination used plug-ins or applets to present information but did not
provide links to the plug-ins or applets. This is significantly higher than the 19 percent of
Web sites with problems identified on their home pages, demonstrating that accessibility
problems are not limited to PDP sponsors’ Web site home pages.

CONCLUSION

Pursuant to Federal regulations, CMS must review and approve marketing materials for
Part D prescription drug plans, including materials provided through Part D sponsors’
Web sites. Our review found that 33 percent of the 84 PDP sponsors did not provide all
federally required content on their Web sites. We also found that 85 percent of the
84 PDP sponsors’ home pages we reviewed did not meet at least one of the four Federal
requirements for Web site accessibility, potentially affecting access to content by
Medicare beneficiaries.

The use of computers and the Internet is increasing among adults aged 65 and older and
utilizing the Internet as a mechanism to provide information on prescription drug plans is
vital. It is important that CMS oversee these Web sites to ensure that all Medicare
beneficiaries, including beneficiaries with disabilities, have comparable access to
federally required content to make informed decisions about their prescription drug
coverage.

This report is being issued directly in final form because it contains no recommendations.
If you have comments or questions about this report, please provide them within 60 days.

If you have any questions about this report, please do not hesitate to call me or one of
your staff may contact Claire Barnard at (202) 205-9523 or through e-mail
(Claire.Barnard@oig.hhs.gov). To facilitate identification, please refer to report number
OEI-06-06-00340 in all correspondence.
Page 12 – Kerry Weems


                                          Appendix A

PDP Sponsor Web Site Content Requirements
Content                              Description
Service area                         Provides details of the plan’s service area.
Benefits                             Provides a description of the benefits offered, including
                                     conditions and limitations, premiums, cost sharing
                                     (copayments, deductibles, coinsurance, and subsidy-eligible
                                     individuals), and any other conditions.
Ways of obtaining more               Provides a description of how an individual may obtain more
information on cost-sharing          information on cost-sharing requirements, including tiered or
requirements                         other copayment levels applicable to each drug or class of
                                     drug.
Formulary                            Provides information about the plan’s formulary, including a
                                     list of drugs, the manner in which the formulary functions
                                     (including any tiered formulary structure and utilization
                                     management procedures used), the process for obtaining an
                                     exception to a plan’s formulary or tiered cost-sharing
                                     structure, and a description of how a Part D-eligible individual
                                     may obtain additional information on the formulary.
Network pharmacies                   Provides addresses of network pharmacies from which
                                     enrollees may expect to obtain covered drugs.
Out-of-Network coverage              Provides information regarding access to covered Part D
                                     drugs at out-of-network pharmacies.
Grievances, reconsideration,         Provides information on the procedures for timely hearing and
exceptions, coverage                 resolution for grievances, coverage determinations, and
determination, and appeal rights     appeals.
and procedures
Quality assurance policies and       Provides a description of the quality assurance policies and
procedures                           procedures and the medication therapy management
                                     program.
Disenrollment rights and             Provides information on enrollees’ disenrollment rights and
responsibilities                     responsibilities.
Potential for contract termination   Provides information on the fact that a Part D sponsor may
                                     terminate or decline to renew its contract or reduce the service
                                     area included in its contract and on the effect of any of these
                                     actions on enrollees.
Source: 42 CFR § 423.128(b).
Page 13 – Kerry Weems


                                            Appendix B



Federal Accessibility Requirements for Web-Based Information


36 CFR § 1194.22
Paragraph          Web-Based Information and Application
(a)                A text equivalent for every nontext element shall be provided.
                   Equivalent alternatives for any multimedia presentation shall be synchronized
(b)
                   with the presentation.
                   Web pages shall be designed so that all information conveyed with color is
(c)
                   available without color.
                   Documents shall be organized so that they are readable without requiring an
(d)
                   associated style sheet.
                   Redundant text links shall be provided for each active region of a server-side
(e)
                   image map.
                   Client-side image maps shall be provided instead of server-side image maps
(f)
                   except where the regions cannot be defined with an available geometric shape.
(g)                Row and column headers shall be identified for data tables.
                   Markup shall be used to associate data cells and header cells for data tables
(h)
                   that have two or more logical levels of row or column headers.
                   Frames shall be titled with text that facilitates frame identification and
(i)
                   navigation.
                   Pages shall be designed to avoid causing the screen to flicker with a frequency
(j)
                   greater than 2 Hz and lower than 55 Hz.
                   A text-only page, with equivalent information or functionality, shall be provided
                   to make a Web site comply with the provisions of this part when compliance
(k)
                   cannot be accomplished in any other way. The content of the text-only page
                   shall be updated whenever the primary page changes.
                   When pages utilize scripting languages to display content, or to create interface
(l)                elements, the information provided by the script shall be identified with
                   functional text that can be read by assistive technology.
                   When a Web page requires that an applet, a plug-in, or other application be
(m)                present on the client system to interpret page content, the page must provide a
                   link to a plug-in or an applet that complies with § 1194.21 (a) through (l).
                   When electronic forms are designed to be completed online, the form shall
                   allow people using assistive technology to access the information, field
(n)
                   elements, and functionality required for completion and submission of the form,
                   including all directions and cues.
(o)                A method shall be provided that permits users to skip repetitive navigation links.
                   When a timed response is required, the user shall be alerted and given
(p)
                   sufficient time to indicate that more time is required.
Source: 36 CFR § 1194.22.
